il-^1

•MS

S

Case No.

< i

ts

\
I

In The
Supreme Court of the United States
Washington, D.C.

Supreme Court, U.S.
FILED

\

JUL 0 6 2021
nrEICE Of THE CLERK

I

Damian R. Nastri,
Petitioner, Pro Se
v.
United States
Department of Homeland Security
Respondent
On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Federal Circuit, et al
Nastri v. DHS, 21-1015, Fed. Cir., Oct 5, 2020.
Order issued April 6, 2021

PETITION FOR WRIT OF CERTIORARI

Damian R. Nastri
6419 Julian Street
Springfield, VA
22150
Pro Se Petitioner

RECEIVED
SEP 1 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i

I.

Questions Presented for Review
Can the U.S. Merit Systems Protection Board (hereafter
MSPB, or Board); make decisions; solicit, hire, promote,
transfer, reassign, or fire staff; select, refer, refuse,
adjudicate or dismiss cases; retain in-house counsel;
represent itself in Court and argue the position of the
Board; have counsel serve as counsel to themselves, or
concurrently serve as the chief executive of the Board,
counsel for the chief executive and Board, Inspector
General functional oversight for themselves and over the
Board; or, be enabled to or otherwise obstruct due
process or otherwise deprive the civil rights or civil
liberties of complainants or other appellants - without
any operable quorum of the Board; or, in the absence of
any Presidentially-appointed and Senate-confirmed
leader of the Board; or, without any Member thereof?
And, notwithstanding, or in the alternative, arguendo the
Board was not insolvent or operating ultra vires, do this
Court's holdings in McCulloch v. Sociedad Nacional de
Marineros de Honduras, 72 U.S. 10 (1963)1, Walker v.
Southern Ry., 385 U.S. 196, 87 S. Ct. 365,17 L. Ed. 2d 294
[1966],2 as well as the 2nd Circuit's holdings in Fay v.

1 Similar to the instant and underlying cases, this Court held exhaustion
was not required, and prompt judicial review will be permitted, where
claims involved questions of public or national importance. McCulloch v.
Sociedad Nacional de Marineros de Honduras, 72 U.S. 10 (1963), at 17.
2 Similar to the instant and underlying cases, in a case involving a claim
of an unfavorable personnel action, this Court analogously held that the
plaintiff, who may have had to wait for years to be heard by the
administrative agency, was not required to exhaust available

Douds,172 F.2d 720 (2d Cir. 1949], ((accord, Fitzgerald v.
Hampton, 467 F.2d. 755 (D.C. Cir. 1972]},3 etseq, or
related, apply to appellants whose remedies before the
Board, etal, have been constructively exhausted (whether
by equivalently intolerable conditions for the specific
petitioner, plaintiff or appellant], because of the Board's
inability to provide timely review, relief, or due process of
law; or for those who wish to be heard before a Court,
because of the gravity of the questions and issues
involved, or because the appellant can make a substantial
showing that their Constitutional Rights were violated?
Furthermore, should the MSPB or the Office of Special
Counsel (OSC], the so-called Special Counsel of the Board,
comply with laws, rules, regulations, and the tenants of
professional misconduct; can the MSPB remand for
further investigation or otherwise hold the OSC
accountable for violating same; and, can an appellant or
other complainant to the MSPB or OSC, aggrieved and
harmed by their violation of these, and deprived of their
rights thereto, pursue legal claims in Court against them?

administrative remedies before commencing a court action. Walker v.
Southern Ry.,M5VS. 196, 87 S. Ct. 365, 17 L. Ed. 2d 294 [1966])
3 The 2nd Circuit has held, and the DC Circuit has similarly held in
accord, that exhaustion is not required when the petitioner has made a
substantial showing that an agency action has violated his constitutional
rights and the assertion of such rights is not ’’transparently frivolous."
Fayv. Douds,\12 F.2d 720, at 723 (2d Cir. 1949); accord, Fitzgerald v.
Hampton, 467 F.2d. 755 (D.C. Cir. 1972)

II.

Table of Contents
I.
II.
III.
IV.
V.
VI.
VII.
VIII.
IX.
X.

Questions Presented
Table of Contents
Table of Authorities
Petition for Writ of Certiorari
Opinions Below
Jurisdiction
Provisions Involved
Statement of the Case
Reasons for Granting Petition
Appendix
\

*

III.

Table of Authorities
Walker v. Southern Ry., 385 U.S. 196,
87 S. Ct. 365,17 L. Ed. 2 [1966].......

I

Pendleton Civil Service Reform Act

IX

Reorganization Plan No. 2 of 1978
[43 F.R. 36037, 92 Stat. 3783]......

IX

Civil Service Reform Act of 1978.

IX

Alissandra G. Nastri v. Henry Kerner,
Special Counsel; and, U.S. Office of
Special Counsel, etal, Civil Action
No. 20-1334, D.D.C., May 19, 2020...

‘ IX

Nastri v. Tristan Leavitt, Merit Systems Protection Board et
al 19-1130, DC Cir., June 14, 2019...
Nastri v. DHS, 21-1015, Fed. Cir., Oct 5, 2020.
Order issued April 6, 2021......................

IX

Carey v. Piphus, 435 U.S. 247, 259 [1978]
Marshall v. Jerrico, 446 U.S. 238, 242 (1980); Schweiker v.
McClure, 456 U.S. 188,195 (1982)...............

IV.

Petition for Writ Of Certiorari
Damian R. Nastri, pro se, a disabled; putatively-former,
non-probationary; career-permanent; competitive
service, line-of-duty injured law enforcement professional
and military support employee of the Federal Executive
Branch civil service; a putatively-protected EEO
complainant, putatively-protected Federal witness of and
regarding civil and criminal misconduct to and for both,
the Federal Legislative and Executive branches; and a
bona fide, lawful, U.S. government-determined
whistleblower who suffered criminal retaliation and
other prohibited personnel practices, inter alia, in
retaliation for his (and his spouse's) whistleblowing and
other Statutorily and Constitutionally protected activity,
including for those other witnesses they helped in same and of an entire class of putative petitioners - to seek a
Writ of Certiorari from and for the Supreme Court of the
United States, following violations of his and others'
Constitutional Rights; and other unlawful and improper
actions, exhaustion of remedies by both, the Federal
Executive Branch, and Federal Judicial Branch, including
multiple circuits thereof, i.e., the U.S. Court of the Appeals
for the District of Columbia Circuit; and now, the
U.S. Court of Appeals for the Federal Circuit.

V.

Opinion Below
The decision by the Court of Appeals for the Federal
Circuit, denying Mr. Nastri's appeal of prohibited

personnel practices, including Whistleblower Retaliation,
and criminal retaliation of a witness; and violations of his
Constitutional Rights; by the U.S. Department of
Homeland Security (DHS); that Court's January 1, 2021,
refusal regard the misfeasance, malfeasance, nonfeasance,
and other illegal acts, including crimes, and violations of
Constitutional Rights, by the U.S. Office of Special Counsel
(OSC) preceding that; and, that Court's refusal to even
recognize the foundational questions, as presented in the
immediate case, as to the legality and operability of the
Board, including its ability to prevent judicial review,
judicial remedy or other due process of law, in either the
absence of a quorum of the Board, or the absence of any
Members of the Board - without ever even identifying a
single judge, let alone the alleged panel that decided such;
that Court's April 6, 2021, surreptitious remand to the
illusory panel - which it then instantly denied, and then
refusal to permit the requested rehearing en banc, which
it also summarily denied - despite first impression
questions before that Court of national importance, the
lack of answer which threatened irreparable harm to
thousands of appellants; and, that Court's concurrent
failure to provide the petitioner any other avenues for
any of his complaints, including even remand to the MSPB
which their previous order simply derided, in the past
presence aspirational, that, "Mr. Nastri could have
perhaps appealed those decisions to the Merit Systems
Protection Board;'' and without explaining to the pro se

appellant his opportunities for review before this Court.4
VI.

jurisdiction
Mr. Nastri's pro se Petition for Review, On Petition for
Rehearing En Banc, was denied on April 6, 2021.
Mr. Nastri, invokes this Court's jurisdiction under 28
U.S.C. § 1254(1), having timely filed a petition for writ of
certiorari, and having endeavored, pro se, in good faith to
follow the guidance of the Clerk of this Court thereafter.

VII.

Constitutional Provisions Involved
United States Constitution, Amendment I:
"Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition
the government for a redress of grievances.”
United States Constitution, Amendment V:
"No person shall be...deprived of life, liberty, or property,
without due process of law..."
United States Constitution, Amendment VII:
"In suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury shall

4 Nastri v. DHS, 21-1015, Fed. Cir., Oct 5, 2020. Order issued April 6,
2021, Mandate issued April 13, 2021.

*

be preserved...”
United States Constitution, Amendment IX:
"The enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others
retained by the people.”

Statutory Provisions or Regulations

Section 2 of Pub. L. 101-12, April 10,1989
"[T]he primary role of the Office of Special Counsel is
to protect employees, especially whistleblowers, from
prohibited personnel practices; [and] (B) that the Office
of Special Counsel shall act in the interests of employees
who seek assistance from the Office of Special Counsel.”

5 U.S.C. § 706
To the extent necessary to decision and when presented,
the reviewing court shall decide all relevant questions of
law, interpret constitutional and statutory provisions, and
determine the meaning or applicability of the terms of
an agency action.
The reviewing court shall—

i

(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action, findings,
and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right;
(D) without observance of procedure required by
law;
(E) unsupported by substantial evidence in a case
subject to sections 556 and 557 of this title or
otherwise reviewed on the record of
an agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that the
facts are subject to trial de novo by the reviewing
court
In making the foregoing determinations, the court shall
review the whole record or those parts of it cited by a
party, and due account shall be taken of the rule of
prejudicial error.

5 U.S.C. § 1201
“The Merit Systems Protection Board is composed of 3
members appointed by the President, by and with the
advice and consent of the Senate, not more than 2 of
whom may be adherents of the same political party. The
members of the Board shall be individuals who, by
demonstrated ability, background, training, or experience
are especially qualified to carry out the functions of the
Board. No member of the Board mav hold another office
or position in the Government of the United States, except
as otherwise provided by law or at the direction of the
President. The Board shall have an official seal which
shall be judicially noticed. The Board shall have its
principal office in the District of Columbia and may have
field offices in other appropriate locations."

5 U.S.C. § 1202(b)
"A member appointed to fill a vacancy occurring before
the end of a term of office of the member's predecessor
serves for the remainder of that term. Any appointment
to fill a vacancy is subject to the requirements of section
1201. Any new member serving only a portion of a sevenyear term in office may continue to serve until a successor
is appointed and has qualified, except that such member
may not continue to serve for more than one year after

the date on which the term of the member would
otherwise expire, unless reappointed.”

5 U.S.C.§ 1202(c)
"Any member appointed for a 7-year term may not be
reappointed to any following term but may continue to
serve beyond the expiration of the term until a successor
is appointed and has qualified, except that such member
mav not continue to serve for more than one year after
the date on which the term of the member would
otherwise expire under this section."

5 U.S.C.§ 1203(a)
"The President shall from time to time appoint, by and
with the advice and consent of the Senate, one of the
members of the Merit Systems Protection Board as the
Chairman of the Board. The Chairman is the chief
executive and administrative officer of the Board."

5 U.S.C.§ 1203(b)
"The President shall from time to time designate one of
the members of the Board as Vice Chairman of the Board.
During the absence or disability of the Chairman, or when

f

■

the office of Chairman is vacant, the Vice Chairman shall
perform the functions vested in the Chairman."

5 U.S.C.§ 1203(c)
"During the absence or disability of both the Chairman
and the Vice Chairman, or when the offices of Chairman
and Vice Chairman are vacant, the remaining Board
member shall perform the functions vested in the
Chairman."
i

5 C.F.R. § 1200.2 Board members and duties.
"(a) The Board has three members whom the
President appoints and the Senate confirms.
Members of the Board serve seven-year terms.
(b) The President appoints, with the Senate's
consent, one member of the Board to serve as
Chairman and chief executive officer of the Board.
The President also appoints one member of the
Board to serve as Vice Chairman. If the office of
the Chairman is vacant or the Chairman cannot
perform his or her duties, then the Vice Chairman
performs the Chairman's duties. If both the
Chairman and the Vice Chairman cannot perform
their duties, then the remaining Board Member
performs the Chairman's duties/

5 U.S.C. § 1204(a)
"The Merit Systems Protection Board shall—
(1) hear, adjudicate, or provide for the hearing or
adjudication, of all matters within the jurisdiction of the
Board under this title, chapter 43 of title 38, or any other
law, rule, or regulation, and, subject to otherwise
applicable provisions of law, take final action on any such
matter;
(2) order any Federal agency or employee to comply with
any order or decision issued by the Board under the
authority granted under paragraph (1) of this subsection
and enforce compliance with any such order; ...and,
(4) review, as provided in subsection (f), rules and
regulations of the Office of Personnel Management"

5 U.S.C. § 1204(e)(l)(B)(i)
"The Merit Systems Protection Board may, during an
investigation by the Office of Special Counsel or during
the pendency of any proceeding before the Board, issue
any order which may be necessary to protect a witness or
other individual from harassment..."

5 U.S.C. § 1204(j)
“The Chairman of the Board may appoint such
personnel as may be necessary to perform the functions
of the Board. Any appointment made under this
subsection shall comply with the provisions of this title,
except that such appointment shall not be subject to the
approval or supervision of the Office of Personnel
Management or the Executive Office of the
President (other than approval required under
section 3324 or subchapter VIII of chapter 33).”

5 U.S.C. §1213
"Whenever the Special Counsel receives information
of a type described in subsection (a) of this section,
the Special Counsel shall review such information and,
within 45 days after receiving the information, determine
whether there is a substantial likelihood that the
information discloses a violation of any law, rule, or
regulation, or gross mismanagement, gross waste of
funds, abuse of authority, or substantial and specific
danger to public health and safety.”

5 U.S.C. § 1214(a)(1)(A)
"The Special Counsel shall receive any allegation of a
prohibited personnel practice and shall investigate the

allegation to the extent necessary to determine whether
there are reasonable grounds to believe that a prohibited
personnel practice has occurred, exists, or is to be taken.”

5 U.S.C.§ 1214(b)(2)(B)
"If, in connection with any investigation, the Special
Counsel determines that there are reasonable grounds to
believe that a prohibited personnel practice has occurred,
exists, or is to be taken which requires corrective action,
the Special Counsel shall report the determination
together with any findings or recommendations to the
Board, the agency involved, and to the Office of Personnel
Management, and may report such determination,
findings and recommendations to the President..."

5U.S.C. § 7701(b)(1)
"The Board may hear any case appealed to it or may
refer the case to an administrative law judge appointed
under section 3105 of this title or other employee of the
Board designated bv the Board to hear such cases.
except that in any case involving a removal from the
service, the case shall be heard by the Board, an
employee experienced in hearing appeals, or an
administrative law judge...”

5 U.S.C.§ 7701(c)(2)
[The agency's decision may not be sustained under
subsection (b) of this section if the employee or
applicant for employment—
(A) shows harmful error in the application of the agency's
procedures in arriving at such decision;
(B) shows that the decision was based on any prohibited
personnel practice described in section 2302(b) of this
title; or,
(C) shows that the decision was not in accordance with
law.

5 U.S. Code § 7703(c)
"In any case filed in the United States Court of Appeals for
the Federal Circuit, the court shall review the record and
hold unlawful and set aside any agency action, findings, or
conclusions found to be—
(1) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(2) obtained without procedures required by law, rule, or
regulation having been followed; or
(3) unsupported by substantial evidence"

VIII.

Statement of the Case
In 1883, at the behest of the President, Congress created
the Civil Service Commission (CSC), a bi-partisan,
three-person commission designed, inter alia, to prevent
political corruption, eliminate patronage, protect federal
workers, and uphold the integrity of the civil service
system.5 In 1978, the functions of the CSC were split
between the Office of Personnel Management (OPM), and
Merit Systems Protection Board (MSPB, or Board).6
Modeled after CSC, MSPB was created as a bi-partisan,
unconflicted, three-person Board. 5 U.S.C. § 1203
It was codified that The Chairman of the Board.
a Principal Officer of the United States, is the
Chief Executive and Administrative Officer of the
Board. 5 U.S.C. § 1203(a).
During the absence or disability of the Chairman, or
when the office of Chairman is vacant, the Chairman's
first deputy, the Presidentially-Appointed and SenateConfirmed Vice Chairman, shall perform functions
vested in the Chairman, as the Chief Executive and
Administrative Officer of the Board. 5 U.S.C. § 1203(b)
And, during the absence or disability of both the
Chairman and Vice Chairman, or when both the offices of
5 Pendleton Civil Service Reform Act
6 Reorganization Plan No. 2 of 1978 (43 F.R. 36037, 92 Stat. 3783) and
the Civil Service Reform Act of 1978.

Chairman and Vice Chairman are vacant, under the law,
only the remaining [Presidentially-Appointed and
Senate-Confirmed] Board Member, can [and must]
perform the functions vested in the Chairman, as the
Chief Executive and Administrative Officer of the Board.
5 U.S.C. § 1203[c]
That is the statutory line of delegation for the Board to
operate - a Board which was created to specifically be
run by a Senate-confirmed, bi-partisan Board of three
[or arguably, a quorum thereof). That is it. Period.
On or about January 7, 2017, after the second of the only
two remaining confirmed leaders of the MSPB, and of the
only two remaining Members of the Board, Chairman
Susan Tsui Grundman, departed the Board, with lawyers 7
and journalists opining what this meant for the Board's
operations, or seemingly regurgitating questionable
information from others or the Board itself - and the
Board lost the quorum it required to make any decisions.
and therefore no longer had any operable quorum.8
After this, as the last remaining Member (Mark Robbins]
was apparently preparing to take the conflicted roll of
counsel for the Defense at the 0PM, while concurrently
7 MSPB Chairman Resignation and the Impact on Board Operations.
Harris Law Firm, https://www.federaldisability.eom/blog/2017/01/mspbchairman-resignation-impact/
8 No Quorum at MSPB Will Halt Decisions on Federal Employee
Petitions. FedSmith, January 10, 2017.
https://www.fedsmith.com/2017/01 /05/no-quorum-at-mspb-will-haltdecisions-on-federal-employee-petitions/

remaining acting Chairman of the Board) and therefore
the Chief Judge over his own Defense, he took actions to
overturn MSPB policies which had been decided under a
quorum of the Board.9
Inter alia, Mr. Robbins changed the policy from that which
allowed an individual appellant (the only party with
rights to hearings before the Board and rights to Court) to
voluntarily rescind their own Petition for Reconsideration
or other pending action for the Board and go to Court,
to instead require the implicated government agency
violators - Robbins impending Defense clients - to permit
such, thereby depriving the appellants from their rights to
judicial review or other due process, especially during the
absence of any operable quorum of the Board under
which MSPB could hear or act on those petitions or other
motions; thereby leaving aggrieved appellants subject to
retaliation or obstruction by the implicated violators.
In October 2018, while Mr. Robbins was preparing to
burrow into the role of 0PM General Counsel, and while
allegations were pending with the MSPB General
Counsel/IG regarding misconduct by the MSPB under
Mr. Robbins, and violations by the OSC under Tristan
9 Congress felt so strongly that one agency, let alone one person, should
not exercise function now held by both MSPB and OPM that in and since
1978, it separated those function out from the CSC into the separate
agencies. In taking on both positions, Mark Robbins not only undid the
well-established purpose of the law, and undermined the Merit System or any appellants ability to a fair and impartial avenue, but essentially
concurrently served as both the Chief Justice (i.e. Chairman of
the MSPB) and Solicitor General (i.e. General Counsel of OPM).

Leavitt; while legal actions by OSC under Mr. Leavitt's
signature were pending in Court against Mr. Robbins, and
while Mr. Leavitt was under charges for misconduct at
OSC by multiple individuals [including Mr. Nastri's
spouse, a senior attorney under Mr. Leavitt at OSC],10
Mr. Robbins burrowed Mr. Leavitt - who had never
regularly practiced law or held a merit based government
job a day in his life, into the conflicted role of MSPB
General Counsel/IG, as a Member of the Senior Executive
Service, outside either the procedures of the
Merit System, or the appointment of the President and
confirmation of the Senate; thereby avoiding scrutiny of
their conflicts.
On Mr. Leavitt's first day as MSPB General Counsel/IG, the
MSPB General Counsel/IG shut down weeks or months of
complaints by Mr. Nastri. And, though Mr. Nastri was an
experienced Federal IG investigator whose similar prior
disclosures had been confirmed as correct by both
Congress and OSC, including under Mr. Leavitt,
Mr. Nastri's charges against the MSPB [which implicated
the OSC and Mr. Leavitt], and though those complaints
not only reported the MSPB's illegal mishandling of and
deprivation of any merit hearing in Mr. Nastri's cases
pending for the Board, but also reported other alleged
fraud, waste, abuse, mismanagement, and professional
misconduct by MSPB staff attorneys and others, the MSPB
10 See, for example, the resulting case, Alissandra G. Nastri v. Henry
Kerner, Special Counsel; and, U.S. Office of Special Counsel, et al,
Civil Action No. 20-1334, D.D.C., May 19, 2020

General Counsel/IG summarily dismissed all the charges,
without any investigation, under the false premise that no
such allegations raised any issues cognizable under the
Inspector General Act, nor did the MSPB General
Counsel/IG refer or allow a single allegation to be
referred to MSPB management, disparately in violation of
the Board's own policies and prior practices.
And, though Mr. Nastri was disabled, and though he had
reasonable and timely filed complaints of discrimination,
these too were refused for any investigation by MSPB.
With certain Members of Congress’s and others' belief
that the MSPB was not properly serving the nation,
following the law, or even needed in existence; and, the
U.S. Senate's willful decision not to confirm any new
replacements to the Board, on February 28, 2019, the,
maximum legal period for carryover of the last remaining
Member of the Board [Mark Robbins) already expired
term as a Member of the Board itself also ran out.
The Board was left without any Member. 5 U.S.C. § 1202
Abusing his authority to seize control, since March 2019,
Tristan Leavitt [the Board’s reportedly unethically or
illegally appointed; and irrefutably non-merit,
non-competitively appointed, non-Presidentiallyappointed and non-Senate Confirmed General Counsel) who was not and had no claim to be any Member of the
Board, has instead, sua sponte, presumed to have
subsumed the role of Chairman, holding himself out to,

concurrently no less, not only still be the General Counsel
to a Board with no Members, but to himself also
concurrently be the acting Chief Executive and
Administrative Officer of the Board fi.e. Chairman).
In doing so, since March 2019, Mr. Leavitt, a licensed
attorney subject to the rules of professional conduct,
has, sua sponte, presumed to serve, concurrently, as his
own boss, his own legal client, his own legal defensive
agent, and his own Inspector General (IG) equivalent
oversight, even while taking personnel actions on others
without the authority to do so, while presuming to
designate staff attorneys as "administrative judges"11,
while presuming the Board's authority to delegate cases
to these employees, and while representing the position
of the Board - including in Court - without a single
Member - a single client to tell him their position, even on
cases that not a single Member of the Board had ever
even heard, let alone decided - and therefore without any
legal standing to do so.12

11 The Board’s “administrative judges” are not to be confused with
“Administrative Law Judges”. The former are simply career, unionized,
civil servant, staff attorneys or other employees at the MSPB who
subsume the title of “administrative judge” when delegated cases from
the Board, while the latter are statutorily created independent ALJs. And
while the Board is authorized ALJs, and though it has the ability to
delegate cases to independent ALJ’s throughout government, it does not
have them, and rarely ever uses them - even when cases involve
whistleblowers against current or former OSC or MSPB Board Members
or staff.
12 In cases that directly implicated Mr. Leavitt and his purported staff in
misconduct, and directly charged the Board, Mr. Leavitt has even entered
himself and his subordinate as counel for the Board, while concurrently

1. The Underlying Case in Nastri v. DHS
In 2016, after OSC had determined (but illegally failed
to report) that Mr. Nastri had in fact suffered
prohibited personnel practices by his current
employer, the U.S. Department of Defense, and had
been retaliated against for his whistleblowing and
protected activity (including to Mr. Leavitt's former
boss and Committee in Congress), but while OSC was
illegally failing to protect him and correct matters as
required, Mr. Nastri applied for other employment.
Relevant to the instant case, and as a tenured,
permanent-career GS-1810-14 investigator, Mr. Nastri
applied (on August 8, 2016) for a competitively
announced GS-1810-13/14 investigator position,
which (at full potential) still simply constituted a
lateral transfer into the respondent agency, DHS, for
assignment in its IG, for DHS's whistleblower
protection and retaliation investigations program.
Unlike any position Mr. Nastri had ever applied to,
due to his unique experience overseeing
claiming to be the head of the Board, and while claiming to argue the
position of the Board and deprive petitioners of suit against the Board, in
the absence of any Member of the Board, let alone a quorum thereofincluding in cases that Mr. Leavitt irrefutably knew the appellant was a
whistleblower who had been retaliated against and otherwise suffered
prohibited personnel practices which the Board or the Court were
required to overturn and correct. See, for example, and for inclusion in
the instant case, Nastri v. Tristan Leavitt, MSPB, etal, 19-1130, DC Cir.,
June 14, 2019; etseq.

whistleblower retaliation investigations throughout
the DoD and its military services, his expertise in both
civilian and military whistleblower protections, his
validated ability to diagnose the problems, failures,
and illegalities of the nation's largest whistleblower
programs, his experience in multiple civilian and
military components of DHS and with Congress, and
his other advanced training and experiences,
Mr. Nastri was literally the single most qualified
person in the entire world for this position, and to
help develop and coordinate DHS’s program - a fact
that recognized by both DHS IG and OSC.
Mr. Nastri went through assessments, interviews and
other checks, and was ultimately selected by DHS.
However, since Mr. Nastri still needed to have his
records cleared and corrected at DoD, as OSC had
pledged and promised to do, he suggested the idea of
his first coming over as a detail, to free up additional
DHS funds to help the program during that initial
period, whereafter - under the Merit Systems rules, he
could be non-competitively transferred to DHS. DHS
IGs leadership was amenable to this, and offered
Mr. Nastri such as his option. Mr. Nastri elected such.
DHS IG even wanted Mr. Nastri so badly that they
altered their hiring plans, rewrote his position
description, modified the required security clearance,
and all sorts of other things to get him.

Unfortunately, since OSC failed to prevent a subject of
Mr. Nastri's whistleblowing, and a conflicted suspect
in the cases OSC was investigating (William "Bill"
Kraus), from interceding in matters; this only caused
more problems.
Not only had multiple officials of the DHS IG offered
Mr. Nastri the job, and congratulated him for such, but
they notified him in late December 2016 that they
were just waiting for his official Entrance on Duty
(EOD) date as DHS staff to be assigned by HR, so he
could start at DHS, in a matter of days, in his new job.
Just days later, in early January 2017, Mr. Nastri
discerned that Mr. Kraus, a bar-licensed attorney,
not only engaged in what appeared to be professional
misconduct, but willfully committed what Mr. Nastri
had credible reason to believe constituted fraud or
other criminally false statements in the documents of
Mr. Nastri's detail that Mr. Kraus was providing DHS.
Mr. Nastri promptly reported to the DHS IG, including
via DHS IG's attorneys, and the DHS whistleblower
program.
Proximately, Mr. Nastri’s future supervisor at DHS the head of DHS's whistleblower program no less (unlawfully) tried to order Mr. Nastri no to make such

disclosures, not to use his own personal email
account, not to exercise free speech.
Leaving town, due to the violations, and not even
being specifically aware of much of this, Mr. Nastri
emailed again before leaving the country on vacation.
Days later, the DHS IG rescinded his hiring, and the
head of DHS's whistleblower program admitted to
Mr. Nastri that he lost the job because of his email
disclosing such allegations to the IG or because he did
not comport with her (unlawful order) - apparently
sent while he was on leave, by a person who was not
even his supervisor yet - to not write the IG's office
about such alleged misconduct like that.
DHS IG also boldly revealed that the DHS IG General
Counsel's office and the DoD IG General Counsels
office apparently colluded on the matter, and used
Mr. Nastri's whistleblowing or other protected activity
against him with his current superior, the acting DoD
IG.
Mr. Nastri promptly began reporting DHS (and DoD's)
violations and other misconduct to OSC. And - though
OSC even conceded that, if not for Mr. Nastri sending
those emails, he would have had the DHS job - DHS
still resisted actually investigating his allegations.
As OSC still failed to protect him, and Mr. Kraus was

instead allowed to continued to retaliate against
Mr. Nastri, and even illegally subsume the DoD's own
defense against Mr. Nastri aforementioned OSC case
with the Board (which, though OSC conceded he was a
whistleblower who was retaliated in it, since he
refused to quietly and insufficiently settle, without full
corrective actions, as Mr. Leavitt, et al, wanted him to),
Mr. Nastri was forced - outside the intent of Congress,
to take the foundational case to the Board himself.
And therein, while the Board's "administrative judge"
under Mr. Robbins refused to even properly regard or
permit Mr. Nastri's interlocutory appeal challenging
Mr. Kraus's conflicts or standing as counsel, and
reporting evidence that Mr. Kraus, et al, had
knowingly committed crimes and other professional
misconduct before the Board, including knowingly
suborning perjury.
But thereafter, Mr. Leavitt illegally suppressed Mr. and
Mrs. Nastri's complaints at OSC, and sought to shut
down Mr. Nastri's cases at OSC without the protection
or assistance the law gave him rights to, if he would
not accept a settlement to waive his claims against
DoD that implicated Mr. Leavitt etal.
Then, Mr. Leavitt transferred to MSPB, and blocked all
of Mr. Nastri's complaints of such
at MSPB from any
)•
investigation either.

In January 2020, prior to that by which OSC no longer
had a non-discretionary requirement to investigate,
and since OSC had never prior initiated a formal case
for Mr. Nastri's charges against DHS, he formally filed
a new case against DHS with the OSC.
Despite the proper procedures for investigations, OSC
not only assigned improperly and unethically
conflicted staff to handle his case, but they never
actually interviewed Mr. Nastri, allowed him to fully
clarify or supplant his complaint, interviewed any
subjects or witnesses, contacted the subject agency, or
even sent him a formal closure in writing. Instead, on
our about June 18, 2020, OSC apparently informally
relayed to Mr. Nastri, via email, that they had ended
their inquiry - and did not even recognize it as an
inquiry into violations of the statutes Mr. Nastri filed
under.
After wasting years with two illegally mishandled
cases before the Board on related matters, including
that which Mr. Leavitt was refusing to allow Mr. Nastri
to proceed to Court with - even in the absence of any
operable Board - and of the reasonable belief that
there was no lawfully operable Board that could grant
Mr. Nastri's requests for corrective actions, injunctive
relief, or other protective orders, on August 24, 2020,
he filed directly with what was supposed to be the

t

appropriate reviewing Court, the U.S. Court of Appeals
for the Federal Circuit.
And therein, inter alia, he raised questions of first
impression before that Court regarding, inter alia, the
fact that the Board's regulations were illegally in
violation of Federal Statutes, that the Board itself was
illegally depriving appellants of their rights under the
law - including their Constitutional Rights; that the
Board concede its own inability to exercise most of its
codified functions - including protective orders; and
ultimately, that cases could be viewed as
constructively exhausted since the Board had lost any
operable quorum, let alone any Member of the Board;
and, that the Court should declare it and all such.
The Federal Circuit failed to ever regard these
questions of first impression and national importance,
let alone much else of Mr. Nastri's prima facie case;
and closed the case without discovery or any hearing,
and without referring any of Mr. Nastri's claims
anywhere else, or providing him any other recourse;
or giving the pro se appellant any useful guidance even though the Federal Circuit was specifically
created to have primary jurisdiction on matters
related to the MSPB, and to help pro se appellants (just like the D.C. Circuit did with Mr. Nastri's previous
related case, in which they also refused to regard any
of his questions of national importance, failed to refer
any of his claims against OSC, the MSPB or others

down to the DC District, and - while a subject in the
case was on staff with the Court - that Court literally
suppressed Mr. Nastri follow-on petition, until after
the date it could be heard (and until after Mr. Nastri
reported such misconduct to the DOJ and the
Judiciary) and then they dismissed the bulk of his
case, based upon Motions from the Board's General
Counsel, without ever considering the outstanding
question as to whether the Board's General Counsel
had standing to represent as such, or whether the
MSPB was operable or able to be forced as a required
administrative route, in the absence of any
Members).13
The Federal Circuit never even assigned any judges to
Mr. Nastri's case, and only later claimed to have
designated and utilized a panel, after Mr. Nastri filed a
Petition for Rehearing En Banc, as part of their April 6,
2021, summary dismissal of same - without regarding
the foundation questions, and without recourse.14
XI.

Reasons for Granting Petition

In addition to the Petitioner, thousands of other
appellants have been unable to get a stay or other
13 Nastri v. Tristan Leavitt, Merit Systems Protection Board, et al, 191130, D.C.Cir., June 14,2019
14 Nastri v, DHS, 21-1015, Fed. Cir., Oct 5, 2020.

protective order; a review of their petition for the
erroneous mishandling of the oft cited as biased or
otherwise incompetent MSPB staff attorneys who
presume the title of Administrative Judge (AJ); or even
pull themselves out of years of limbo by withdrawing
their own voluntarily-submitted petition so they can seek
due process in any Court without the leave of the of the
defendant agency of the government - parties who don't
enjoy the same initial rights to stay or merit hearing
before the Board; or without first wasting many months
or years before a Board that - even when it did function,
rarely gave appellants the merit hearing they have a
statutory right to, and almost never provided them any
relief, let alone full corrective and compensatory relief.
In fact, though they tried to mislead with it, careful
analysis of a 2019 article released under Mr. Leavitt's
tenure revealed that only 19% of cases (5,000 of the
26,000 sampled cases] that are filed with the Board are
even able to get a decision - any decision, even just in the
interim by an inferior MSPB AJ, one way or the other, on
the merits of their cases. And then, of those 19% of cases
the MSPB actually let get any hearing on the merits, an
average of just 18% of those 19% of cases - less than
one-fifth the cases they allowed to proceed, which was
itself less than one-fifth of the cases, get relief.15

15 Issues ofMerit, Insights and Analyses for Federal Human Capital
Management, at page 3, MSPB, May 2019.

That means that - even though the law states, and
Congress asserted that complainants had a “Right to a
Hearing," even a “Right to a Full Hearing," and that the
rights to a hearing belonged to the appellant, and with the
appellant was also the right to waive the hearing, thereby
exhausting administrative process 16 -- less than one-fifth
of MSPB cases get any hearing and decision on their case.
and even then, less than one-fifth of less than one-fifth or 3% - of anv such MSPB cases receive anv such relief.
Congress also made clear their intention with the law that
complainants who appealed matters relating to Federal
employment to the MSPB had a right to a hearing, and the
right to be represented. They further underscored that
the rights to a hearing belonged to the appellant, and with
the appellant was also the right to waive the hearing,
thereby exhausting administrative process. 17
It was this Court itself that wisely reminded the
government that procedural due process rules are meant
to protect persons from the mistaken or unjustified
deprivation of life, liberty, or property. Carey v. Piphus,
435 U.S. 247,259 (1978)
Moreover, "The neutrality requirement helps to
guarantee that life, liberty, or property will not be taken
on the basis of an erroneous or distorted conception of
https://www.mspb.gov/MSPBSEARCH/viewdocs.aspx?docnumber=J6136
53 &version=1619487
16 H. Conf. Rep. 95-1717 at 132, 134. Oct.5, 1978.

the facts or the law... At the same time, it preserves both
the appearance and reality of fairness ... by ensuring that
no person will be deprived of his interests in the absence
of a proceeding in which he may present his case with
assurance that the arbiter is not predisposed to find
against him.” Marshall v.Jerrico, 446 U.S. 238, 242 (1980];
Schweikerv. McClure, 456 U.S. 188,195 (1982]
At current, thousands of U.S. Citizens, including brave
whistleblowers who risked their careers in such public
service, have been or are being deprived of liberty,
property, and even life - without due process, and
without any accountability for the violators. Congress
created a system with OSC and the MSPB that was
supposed to help ensure that, but in truth, they have not
been doing it for decades. Every few years Congress
realizes it, holds hearings, changes laws, and makes
demands. OSC and MSPB make promises. But in the end,
and as the data shows, it's still a dysfunctional, broken,
incestuous and otherwise illegal system.
And now, given the state of affairs at the MSPB, even if or
when Congress decides to consider and confirm
replacement, even assuming they would be capable
people without conflicts, it will be years before the
Petitioner and hundreds to thousands of others could
even get chance for a hearing before the board - and even
then, the odds of that are as bad as the lottery - let alone
any remedy. This is not the due process Congress or the
Founding Fathers envisioned or the people are promised.

CONCLUSION
A shadow bureaucracy (i.e., MSPB staff), neither
appointed by the President, nor confirmed by the Senate,
nor operating under the supervision or active referral and
delegation as required of anyone who had been appointed
by the President nor Confirmed by the Senate to lead such
- let alone the requisite quorum of such to operate, has
been acting ultra vires for years, and preventing due
process, judicial review; and otherwise acting in concert,
colluding with or accessories after the fact, with other
conflicted bureaucrats (e.g., OSC), whom Congress has
been trying to reign in for decades, demonstrating a clear
insufficiency of the system.
This Honorable Court should grant certiorari; and, ensure
the availability of the Courts, due process of law, and
Constitutional Rights to petitioners, plaintiffs and
appellants - for not only the petitioner, but also an entire
class of current and former career Federal Employees
(or qualifying applicants thereto), whistleblowers,
U.S. Citizens who, at this point, number in the thousands
or more - and this Court should do so whether it is
inconvenient to the lower courts or the administrative
agencies or not.

Flat justitia ruat caelum

